<Sr

APPENDIX

L•

FILED: May 4, 2021
'UMTEETSTATESXOURT Oi APPEALS
FOR THE FOURTH CIRCUIT

No. 21-1045
(2:20-ev-00953-RMG-MGB)

In re: JIMMIE WASFIINGTON, a/k/a Jim Washington
Petitioner

ORDER
The court denies the petition for rehearing.
Entered at the direction of the panel: Judge Wilkinson, Judge Richardson,
and Senior Judge Shedd.
For the Court
/s/ Patricia S. Connor. Clerk

la

FILED: May 4. 202 ]
UNITED STATES COURT OF APPEALS
FOR TFIE FOURTH CIRCUIT

No. 21-1296
(2:20-cv-00953-RMG)

JIM WASHINGTON
Plaintiff - Appellant
v.
TRIDENT MEDICAL CENTER, LLC
Defendant - Appellee

ORDER
Appellant's motion to reconsider this court's order denying his motion to
suspend the informal briefing schedule and extending the deadline for his informal
opening brief to May 14, 2021. is denied as moot in light of this court's order
denying his petition for rehearing in No. 21-1045, In re: Washington. The due date
for appellant's informal opening brief is extended to May 28, 2021.
For the Court—By Direction
/s/ Patricia S. Connor. Clerk

2a

FILED: April 14,2021
UNITED STATES COURT OF APPEALS
FOR'THETOURTHCIRCUIT

No. 21-1296
(2:20-cv-00953-RMG)

JIM WASHINGTON
Plaintiff - Appellant
v.
TRIDENT MEDICAL CENTER, LLC
Defendant - Appellee

ORDER
The court denies the motion to suspend the proceedings in this case and
extends the time for filing the informal opening brief to 05/14/2021.
For the Court—By Direction
/s/ Patricia S. Connor. Clerk

3a

FILED: March 23,2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 21-1045
(2:20-cv-00953-RMG-MGB)

In re: JIMMIE WASHINGTON, a/k/a Jim Washington
Petitioner

JUDGMENT
In accordance with the decision of this court, the petition for writ of
mandamus is denied.

/s/ PATRICIA S. CONNOR. CLERK

4a

PER CURIAM:
Jimmie Washington petitions for a writ of mandamus, alleging that the district court
has unduly delayed acting on his 42 U.S.C. § 1983 action. He seeks an order from this
court directing the district court to act. Our review of the district court’s docket reveals
that the district court dismissed Washington’s second amended complaint on January 28,
2021. Accordingly, because the district court has recently decided Washington’s case, we
deny the mandamus petition and amended mandamus petition as moot. We dispense with
oral argument because the facts and legal contentions are adequately presented in the
materials before this court and argument would not aid the decisional process.
PETITION DENIED

5a

FILED: March 23, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 21-1045
(2:20-cv-0095 3-RMG-MGB)

In re: JIMMIE WASHINGTON, a/k/a Jim Washington
Petitioner

ORDER

After the district court entered judgment and denied post-judgment relief in
the underlying matter, petitioner filed a notice of appeal in the district court and a
motion for leave to file a second amended mandamus petition in this court.
The motion for leave to file a second amended mandamus petition is denied
without prejudice to petitioner’s appeal in the case.
For the Court—By Direction
/s/ Patricia S. Connor, Clerk

6a

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 21-1045

In re: JIMMIE WASHINGTON, a/k/a Jim Washington,
Petitioner.

On Petition for Writ of Mandamus. (2:20-cv-00953-RMG-MGB)

Submitted: March 18, 2021

Decided: March 23, 2021

Before WILKINSON and RICHARDSON, Circuit Judges, and SHEDD, Senior Circuit
Judge.

Petition denied by unpublished per curiam opinion.

Jimmie Washington, Petitioner Pro Se.

Unpublished opinions are not binding precedent in this circuit.

7a

Filed: March 18, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

INFORMAL BRIEFING ORDER

No. 21-1296,

Jim Washington v. Trident Medical Center, LLC
2:20-cv-00953-RMG

This case has been placed on the court's docket under the above-referenced
number, which should be used on papers subsequently filed in this court. The case
shall proceed on an informal briefing schedule pursuant to Local Rule 34(b). The
Informal Brief Form is attached. Informal briefs shall be served and filed within
the time provided in the following schedule. Only the original informal brief is
required; no copies need be filed unless requested by the court.
Informal opening brief due: 04/12/2021
Informal response brief permitted within 14 days after service of informal opening
brief (filing of an informal response brief is not required).
Informal reply brief permitted within 10 days after service of informal response
brief, if any.
If the informal opening brief is not served and filed within the scheduled time, the
case will be subject to dismissal pursuant to Local Rule 45 for failure to prosecute.
Extensions of briefing deadlines are not favored by the court and are granted only
for good cause stated in writing.
The court will not consider issues that are not specifically raised in the informal
opening brief. If a transcript is necessary for consideration of an issue, appellant
must order the transcript within 14 days of filing the notice of appeal, using the
court's Transcript Order Form. Parties who qualify to proceed without
prepayment of fees and costs may apply for preparation of the transcript at
government expense. In direct criminal appeals in which the appellant has waived
the right to counsel and elected to proceed pro se, the motion for transcript at
government expense is filed in the Court of Appeals and transcript is ordered by
the Court of Appeals. In other cases, the motion should be filed in the district court
8a

in the first instance and must be accompanied by the requisite demonstration of a
particularized need for the transcript to decide non-ffivolous issues presented on
appeal. The motion may be renewed in the Court of Appeals and must be
accompaniedby the'i nformal' brie f.
The Court of Appeals reviews the district court or agency record in informally
briefed cases. Therefore, no appendix is necessary. District court records are
available to the parties through the Public Access to Court Electronic Records
(PACER) system. See https;//www.pacer.gov. Agency records are filed with the
court of appeals in electronic or paper form. The parties may make advance
arrangements to review agency records in pending appeals in the clerk's office.
The court will not appoint counsel or schedule a case for oral argument unless it
concludes, after having reviewed the informal opening brief, that the case cannot
be decided on the basis of the informal briefs and the record.
Counsel filing an informal brief on behalf of appellee must also complete and file
an Appearance of Counsel form. Counsel for appellee will not appear on the
court's opinion if an Appearance of Counsel form is not filed with the court.
Parties in civil and agency appeals must file a Disclosure Statement within 14
days of the informal briefing order, except that a disclosure statement is not
required from the United States, from indigent parties, or from state or local
governments in pro se cases.
Parties are responsible for ensuring that social security numbers, juvenile names,
dates of birth, and financial account numbers are redacted from any documents
filed with the court and that any sealed materials are filed in accordance with the
enclosed Memorandum on Sealed and Confidential Materials. Attorneys are
required to file electronically in the Fourth Circuit. Information on obtaining an
electronic filer account is available at www.ca4.uscourts.gov.
/s/ PATRICIA S. CONNOR, CLERK
By: Kirsten Hancock, Deputy Clerk
Copies: Jim Washington
209 Signet Drive
Eutawville, SC 29048

9a

2:20-cv-00953-RMG

Date Filed 02/16/21

Entry Number 33

Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
Charleston DIVISION
Jim Washington.

Plaintiff,
V.

Trident Medical Center, LLC
Defendant.

Civil Action No. 2:20-00953-RMG

)
)
)
)
)
)
)
)
)

Order and opinion

Before the Court is Plaintiffs motion for reconsideration, (Dkt. No. 32).

Plaintiffs

motion is denied.
On January 28, 2021, the Court dismissed Plaintiffs Seconded Amended Complaint with
prejudice, denied Plaintiffs motion for certification of interlocutory appeal and denied Plaintiffs
motion to stay. See Order and Opinion, (Dkt. No. 28) (adopting the Report and Recommendation
of the Magistrate Judge, (Dkt. No. 21), recommending this action dismissed with prejudice).
Plaintiff now moves the Court to reconsider in whole its prior order and opinion. Rule
59(e) of the Federal Rules of Civil Procedure permits a party to move to alter or amend a
judgment within twenty-eight days of the judgment’s entry. Fed. R. Civ. P. 59(e). “A district
court has the discretion to grant a Rule 59(e) motion only in very narrow circumstances.” Hill v.
Braxton, 277 F.3d 701, 708 (4th Cir. 2002). Specifically, the Court may reconsider its prior
order only "(1) to accommodate an intervening change in controlling law: (2) to account for new
evidence not available at trial: or (3) to correct a clear error of law or prevent manifest injustice.”
Collison v. Int'l Chm. Workers Union, 34 F.3d 233, 236 (4th Cir. 1994) (internal quotation
marks omitted). However, ‘‘[a] Rule 59(e) motion should not be used as an opportunity to rehash
issues already ruled upon because a litigant is displeased with the result.”

10a .

Cooper v.

2:20-cv-00953-RMG

Date Filed 02/16/21

Entry Number 33

Page 2 of 2

SjMmmbwgSdi, ^v/^v^r^o^a-GV--00991-JMa-2016 WF 7474380, at~*-2 (D.-S,CNDec,29, 2016), tiff'd sub now. Cooper v. Spartanburg Cty. Sch. Dist. No 7, 693 F. App’x 218 (4th
Cir. 2017) (citations omitted).
Plaintiff has not identified any change in controlling law or any new evidence not
pieviously available. Instead. Plaintiff argues that that the Court’s ruling was in clear error.
Plaintiffs aiguments, howevei, lehash those he already presented to this Court and which this
Couit analyzed and rejected. I he ruling to dismiss Plaintiff s Second Amended Complaint was
not a cleat erior of law nor was it manifestly unjust.

Nor was the Court’s ruling to deny

Plaintiff 's motion for interlocutory appeal and a stay pending that appeal.
Accordingly, there is no basis to reconsider the Court’s prior order and opinion
dismissing this case. The Court DENIES the motion for reconsideration. (Dkt. No. 32).
AND IT IS SO ORDERED.
s/ Richard Mark Gergel
United States District Judge
February 16, 2021
Charleston, South Carolina

11a

2:20-cv-00953-RMG

Date Filed 01/28/21

Entry Number 28

Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
CHARLESTON DIVISION
Jim Washington,

Plaintiff,
v.
Trident Medical Center, LLC,

)
)
)
)
)
)
)
)
)

Case No. 2:20-cv-953-RMG

Order and opinion-

r

Defendant.

)
)

This matter is before the Court on the Report and Recommendation (“R&R”) of the
Magistrate Judge (Dkt. No. 21) recommending that this Court dismiss Plaintiff Jim
Washington's Seconded Amended Complaint with prejudice and without issuance and service of
process. Also before the Court are motions by Plaintiff for (1) certification of interlocutory
appeal and for (2) a stay of this case pending such an appeal. (Dkt. No. 25). For the reasons set
forth below, the Court adopts the R&R as the order of the Court, dismisses Plaintiffs Second
Amended Complaint with prejudice, denies Plaintiffs motion for interlocutory appeal, and
denies Plaintiffs motion to slay.
I. Background and Relevant Facts
Plaintiff, proceeding pro se and in forma pauperis, brings this action pursuant to 42
U.S.C. § 1983, alleging violations of his constitutional rights to procedural due process and
equal protection of the law under the Fourteenth Amendment.

As the Magistrate Judge

succinctly stated, the Seconded Amended Complaint (“SAC”)—which centers around an
underlying medical malpractice case initially tiled in 2015 by Plaintiff—is best summarized as
lollows: ‘'Defendant's] attorneys had a meeting of the mind with each state court officials in
12a

2:20-cv-00953-RMG

Date Filed 01/28/21

Entry Number 28

Page 2 of 6

their individual capacities to conspire against Plaintiff to act under color of law of slate laws as
set forth herein at each stages of the Court proceedings to arbitrarily invoke the rules, policies.
practices, procedures, statutes and customs of State of South Carolina as set forth herein for no
rational or legitimate reason but solely for the purpose to cover-up all evidence that would entitle
Plaintiif to relict from judgment with intent to discriminate against Plaintiff to treat him
unequally to prevent him from enjoying his constitutional rights to equal protection and due
process of law.” (Dkt. No. 21 at 7) (citing Dkt. No. 19 at 4 (errors in original)).
Plaintiff filed his complaint on March 5, 2020. The Magistrate Judge issued a proper
form order to Plaintiff on March 18, 2020. (Dkt. No. 6). Plaintiff filed an amended complaint on
April 10, 2020. (Dkt. No. 12). On November 4, 2020, Plaintiff moved to amend his complaint.
(Dkt. No. 16). The Court granted Plaintiffs motion, (Dkt. No. 17), and Plaintiff subsequently
filed the SAC on November 11. 2020, (Dkt. No. 19).
On January 6, 2021, Plaintiff Hied motions for (1) certification of interlocutory appeal
and (2) a stay pending appellate review of the order granting interlocutory appeal. (Dkt. No. 25).
"With respect to certification. Plaintiff identifies] as a controlling question of law' whether he
has met the sufficient plausibility standard oiAshcroft v. Iqbal and Bell Atl. Corp. v. Twoinb/y."
(Id at 6). Plaintiff also seeks certification as to “whether the Rooker-Feldman doctrines bars”
Plaintiffs claims. (Id. at 7).
On January 11, 2021, the Magistrate Judge issued an R&R recommending the SAC be
dismissed with prejudice. (Dkt. No. 21). On January 25, 2021, Plaintiff filed objections to the
R&R. (Dkt. No. 26).
II. Legal Standards
a. Pro Se Pleadings

13a

2:20-cv-00953-RMG

Date Filed 01/28/21

Entry Number 28

Page 3 of 6

This Court liberally construes complaints filed by pro se litigants to allow the
development of a potentially meritorious case. See Cruz v. Beta., 405 U.S. 319 (1972); Haines v.
Kerner, 404 U.S. 519 (1972). The requirement of liberal construction does not mean that the
Court can ignore a clear failure in the pleadings to allege facts which set forth a viable federal
claim, nor can the Court assume the existence of a genuine issue of material fact where none
exists. Sec Weller v. Dep’t ofSocial Services, 901 F.2d 387 (4th Cir. 1990).
b. Magistrate Judge’s Report and Recommendation
The Magistrate Judge makes only a recommendation to this Court. The recommendation
has no presumptive weight, and the responsibility for making a final determination remains with
this Court. See Mathews v. Weber, 423 U.S. 261, 270-71 (1976). This Court is charged with
making a cle novo determination of those portions of the Report and Recommendation to which
specific objection is made. Additionally, the Court may "accept, reject, or modify, in whole or
in part, the findings or recommendations made by the magistrate judge.” 28 U.S.C. § 636(b)(1).
Where the plaintiff fails to file any specific objections, “a district court need not conduct a de
novo leview, but instead must only satisfy itself that there is no clear error on the face of the
record in order to accept the recommendation." See Diamond v. Colonial Life & Accident Ins.
Co., 416 F.3d 310, 315 (4th Cir. 2005) (internal quotation omitted). Plaintiff filed objections to
the R&R, so it is reviewed de novo.
III. Discussion
The Court finds that the Magistrate Judge ably addressed the issues and correctly
concluded that Plaintiffs SAC should be dismissed with prejudice. Namely, the Magistrate
Judge conectly determined that Plaintiff has failed to allege plausibly a claim for civil
conspiracy under either 42 U.S.C. § 1983 or 42 U.S.C. § 1985(3). See (Dkt. No. 21 at 9-10)

14a

2:20-cv-00953-RMG

Date Filed 01/28/21

Entry Number 28

Page 4 of 6

(cxplaining-that-the-SAC-s-allegations-that J3efendant:s.attorneysLcommilted_i;extrjnsic;Lfraud-------on the state court hearing Plaintiffs case ‘"fatally undermines’' the allegation that Defendant's
attorneys conspired with court officials to deny Plaintiff his constitutional rights); see also (Id. at
10-12) (rejecting as "untenable" Plaintiffs contention that the state court's adverse rulings
against Plaintiff constitute over acts itt furtherance of a conspiracy with Defendant because, to
find otherwise, would “deem plausible the idea that each of the state court judges involved in
Plaintiffs underlying malpractice action independently rendered their respective judicial
determinations in favor of Defendant, based not on their legal analyses of the case, but rather, on
their participation in a clandestine conspiracy with Defendant"). Plaintiff filed objections to the
R&R and the Court addresses them below.
The Court overrules Plaintiffs objections. (Dkt. No. 26 at 5-15).

While nuhteious.

Plaintiffs objections merely • repeat the SAC s allegations and argue that these allegations
successfully state various claims despite their conciusory nature. See, e g., (Id. at 5-6).1 In sum,
Plaintiffs objections are non-specific as they are "unrelated to the dispositive poitions of the
1 Plaintiff also argues that the Magistrate Judge incorrectly construed the SAC’s "‘class of one equal
protection claim as a statutory claim under 42 U.S.C. § 1985(3). (Dkt. No. 26 at 9) ( Despite
Plaintiff explicit notice on page 21 of his [SAC] that his cause of action is based undei a class of one
theory the magistrate judge R&R on pages 12-14 misconstrue Plaintiff class of one equal protection
into a"24 U.S.C. statute 1985(3) class-based" claim) (errors hi original). Assuming without finding
that the Magistrate Judge incorrectly construed Plaintiff s "class of one claim, the Couit finds the
error harmless. Plaintiffs “class of one” equal protection claim fails for many of the same reasons
Plaintiffs § 1983 claim fails. For example, as noted by the Magistrate Judge in the R&R, Plaintiff
has not allegedly plausibly that Defendant—a private entity—acted under color of state law. For
this reason alone. Plaintiffs class of one claim fails. See Cainhoy Athletic Soccer Chd) v. Town of
Mount Pleasant, 225 F. Supp. 3d 514, 524 (D.S.C. 2016) (noting “[a] [§ 1983] plaintiff must allege
a deprivation of a federal right and must allege that the person who deprived plaintiff of that right
acted under color of state law); Id. (noting"‘[a] single plaintiff may bring an equal protection claim
as a ‘class of one, where the plaintiff alleges that she has been intentionally treated differently from
others similarly situated [by a government actor] and that there is no rational basis for the difference
in treatment"') (Village of Willow brook v. Olech, 528 U.S. 562, 564, 120 S.Ct. 1073, 145 L.Ed.2d
1060 (2000)).

15a

2:20-cv-00953-RMG

Date Filed 01/28/21

Entry Number 28

Page 5 of 6

Report, or merely restate Plaintiffs claims” and the Court will not discuss them further. Lester v.
Michael Henthorne of Littler Mendleson PC, No. CV 3:14-3625-TMC, 2014 WL 11531106, at
*1 (D.S.C. Oct. 28, 2014). affd sub nom. Lester v. Michael Henthorne of Littler Mendelson PC,
593 F. App'x 239 (4th Cir. 2015).
Further, to the extent that Plaintiff asks this Court to certify an “interlocutory appeal” and
to “stay” this case pending that appeal, the Court denies the request. Pursuant to 28 U.S.C. §
1292(b), when a district judge is of the opinion that an “order involves a controlling question of
law as to which there is substantial ground for difference of opinion and that an immediate
appeal from the order may materially advance the ultimate termination of the litigation, he shall
so state in writing in such order.” The Court of Appeals may then, at its discretion, permit an
interlocutory appeal after an appropriate application is made. Here, Plaintiff is attempting to use
the interlocutory appeal mechanism to test whether the SAC states plausible claims for relief.
(Dkt. No. 25 at 6-7). This is a patently improper use of § 1292(b). At bottom, Plaintiff is
attempting to subvert this Court’s review of his complaint as mandated by 28 U.S.C. §
1915(e)(2)(B) and the Court rejects the effort. See Nag)> v. FMC Bittner, 376 F.3d 252, 256 (4th
Cir. 2004) (explaining that the granting of in forma pauperis status in a case triggers a district
court’s duty to “silt out claims that Congress found not to warrant extended judicial treatment”).

IV. Conclusion
For the reasons set forth above, the Court ADOPTS the R&R (Dkt. No. 21) as the order
of Court, DISMISSES Plaintiffs SAC WITH PREJUDICE, DENIES Plaintiffs motion for
certification of interlocutory appeal and DENIES Plaintiffs motion to stay (Dkt. No. 25).
AND IT IS SO ORDERED.

16a

• 4
a

!

2:20-cv-00953-RMG
;\{ '

(TCU

2s»'.U;

j:n

Date Fiieci 01/29/21

Entry Number 30

Page 1 of 1

C;u‘. Ausor.

United States District Court
for the
District of South Carolina

Jim Washington
1'kmnH

v.
Tricteiu Medical CenterLUC
Defernhon

)

Civil Action No.

2:2t!-cv-0()953-R\iG

)
)
JUDGMENT IN A CIVIL ACTION

The court has ordered that
X other: having adopted the Report and ■Recommendation of "Magistrate Judge Mars1 Gordon Baker,
dismissing Plaintiffs second amended complaint, denying Plaintiffs motion to stay, and denying Plaintiffs
motion for certification of interlocutory appeal, this action is dismissed with prejudice and without issuance or
service of process.
This action was
N decided by the Honorable Richard M. G erg cl. United States District Judge, presiding.

Gv.er.

kwvwwv 29,1021

C.U-IRK OF COURT

Room L. BUmve

S'S. Sheaiy
of Ckd or Dj/wy Choi:

18a

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
CHARLESTON DIVISION
Jim Washington.

)

Plaintiff,
v,

Case No. 2:20-cv-G0953-RMG-MGB

;
)
)
)

Trident Medical Center, LLC,
Defendant.

)

REPORT AND RECOMMENDATION

)
)
)
.)

Plaintifl Jim Washington, proceeding pro se and in forma pauperis, brings this action
pursuant to 42 U.S.C. § 1983, alleging, violations of his constitutional rights to procedural duo.
process and equal protection of the law under the Fourteenth Amendment. Under 28 U.S.C.
§ 636(b)(l) and Local Civil Rule 73.02(B)(2)(c) (D.S.C.), the undersigned is authorized to review
al! prctnal matters in such/?ro sc cases and submit findings and a recommendation to the assigned
district judge. For the reasons discussed below, the undersigned recommends that this action be
summarily dismissed with prejudice and without issuance or service of process.

BACKGROUND
The instant case centers around an underlying medical malpractice action filed by Plaintiff
against Defendant in the South Carolina Court of Common Pleas on or around September 11.
20157 (See Case No. 2015-CP-10-5000.) On January 14, 2016, the circuit court judge issued a
chcck-thc-box Form 4 ("‘Judgment in a Civil Case”) granting Defendant :s motion to dismiss
Plaintiffs case. On January 27, 2016, Plaintiff filed a motion to reconsider the dismissal of his
Uvi O-WA t.v.V/iS. y,\'A',cv,\\ v>\iUw.-of VV.viViWiV s vYnVc.’iVywg sv.Yic tovn'i action. See Philips v. Pin Ciy. Mem. Hasp.,
5?2 {'.3d 176, 180 (4ih Cir. 2009) (explaining that courts “may properly take judicial notice of matters of mibiic
record"); Colonial Penn Ins. Co. v. Coil, S87 F'.2d 1236, 1239 (4ih Cir. 1989) (“We note that ‘the most frequent use
.....
of judicial notice is in noticing the content of court records"). For Plaintiffs underlying state court action, see
generally https://jcni.sv/eb.charlc.stoncounly.org/Publiclndex/PlScarch.aspx (with search parameters limited (w
Plaintiffs name).
J

19a
r-s -

L___ ,

action pursuant to Rule 59(e) of the South Carolina Rules of Civil Procedure (“SCRCP”). Within
the body of this motion. Plaintiff also included two requests “for relief from judgement or order”
pursuant to Rule 60(b)(1) and (3), SCRCP. The circuit court then issued a written order on
February 5, 2016, formally dismissing Plaintiffs lawsuit with prejudice. More specifically, the
circuit court judge explained that, “having reviewed the pleadings and having considered
arguments and legal memoranda of the parties,” Plaintiff had clearly failed to comply with certain
statutory pre-litigation requirements, including the filing of an expert witness affidavit pursuant to
S.C. Code § 15-79-125(A), and his medical malpractice lawsuit was therefore subject to
dismissal.2
Plaintiff filed a notice of appeal on March 4, 2016, and the South Carolina Court of Appeals
affirmed the circuit court’s decision by order dated January 10, 2018. The court of appeals then
denied Plaintiffs subsequent petition for rehearing on February 22, 2018. (See Case No. 2016000495.) The South Carolina Supreme Court denied Plaintiffs petition for a writ of certiorari
shortly thereafter and the remittitur was issued on May 30,2018. (See Case No. 2018-000489.)
Following the dismissal of his lawsuit. Plaintiff proceeded to file a series of unsuccessful
motions in circuit court, which arc now the focus of the present § 1983 action. Although Plaintiffs
allegations are somewhat convoluted and difficult to follow, it appears Plaintiff filed a “motion to
reconsider conclusion” with the circuit court on July 6, 2018, along with a subsequent letter
requesting a hearing on said motion. In addition to challenging the merits of the circuit court’s
February 5, 2016 order, Plaintiff s motion raised allegations of extrinsic fraud against Defendant’s
attorneys lor intentionally misrepresenting the facts of Plaintiffs medical treatment to the courts.
Plainlilf also argued that the circuit court judge never explicitly adjudicated his Rule 60(b)

Of relevance to Plaintitfs $1983 claim, the circuit court's order did not explicitly reference Plaintiff’s
January 27, 2016 motion to reconsider.

20a

"----- 1\

claims-'

contained within in hi> Ruie 59(c) motion for reconsideration filed January 27, 2016

priot* 10 issuing ihc final order oi dismissal-4
On August 20. 2018, Defendant’s attorneys filed a letter with the Clerk of Court objecting
to Plaintiff's request for a hearing on his July 6. 2018 motion to reconsider. The letter stated, TT|u
light ot the remittitur, this matter is concluded and no further proceedings should be permitted.
I liereforc. we respectfully request that the Clerk not set a hearing on the motion and that it be
denied.” Before tire circuit court could respond, Plaintiff filed a separate motion to vacate the
judgment and amend the pleadings, apparently labeled as a Rule 60(b) motion, reiterating those
same arguments raised in his most recent motion lor reconsideration. The parties briefed the issues
raised in Plaintiff's motion to vacate and a. hearing took place before a circuit court judge on
Pebruary 7, 2018.
1 he circuit court ultimately rejected Plaintiffs arguments, explaining that matters decided
by the appellate court cannot be reconsidered or refttigated in triat court and, thus, the circuit court
iacxed jurisdiction to rehear Plaintiff’s contentious regarding the merits of his malpractice claims,
(he court aiso found that to the extent the trial court judge did not expressly resolve Plaintiffs
"pending” Ruie 60(b) claims in the final written order on February 5, 2016, Plaintiff did not raise
tiie issue with the judge or with the appellate court during his subsequent appeal, and, thus, had

Plamtilt appears to consider the two Ruie 60(b) claims contained w ithin his Ride 59(e) motion as actual
"motions separate and distinct tram hts Rule 59(e) motion that necessitated an independent analysis and robin’.
Plamutl seems to suggest that tiller the South Carolina Supreme Court issued the remittitur on May 30,2015;.
he eaiiet! me cuetat court to inquire about his "pending" Ruie 60(b) claims. The presiding circuit court judge
eventually responded via ietter dated June 22. 2018, ‘stating that the Court of Appeals affirmed his order and that al!
post trial motions were final and instructed Plaimiifto contact his law clerk for further questions on the matter.’’ (Dkt.
No. 19 at 37: .see also Dkt. Xo. !-! at 2. "The above referenced matter has been closed. Enclosed is a copy of the
Court ot Appeals opinion affirming my order and concluding al! motions filed.’) Plaintiff claims that at some point
on or around October 20, 20! 8, he spoke with a law clerk who, according to Plaintiff, agreed that his Ruie 60(b) claims
tram January 2016 were soli pending and'or viable. (Dkt. Mo. \9 at 55.) The undersigned notes that while Plaintiff
seems to characterize and/or interpret this alleged conversation with the iaw clerk as an “order’ or "decision” of the
court (.see, e.g.. id. til 9, 40 -41, 51). there is nothing m the state court’s records to suggest that any such order was
issued by the assigned eirenit court judge or that this communication even occurred.

21a

4

effectively abandoned the argument. The court therefore concluded that it was not appropriate for
Fhuniii! to raise the issue at tins stage, two }ears aJier-the-faet. And fmally, with respect

to

Plaintiffs allegations of extrinsic fraud; the circuit court "thoroughly reviewed Plaintiffs filings
and 1 fbundj no evidence of any fraud55 as it pertained to Defendant's counsel. Plaintiffs motion to
vacate was therefore denied.
On February 2.2, 2019, Plaintiff filed a motion for reconsideration of his motion to vacate
under Rules 59(c) and 60(b), SCRCP, once again alleging extrinsic fraud with respect to
Defendant's counsel and arguing that lie was not given the opportunity to fully present his case m
iight of his unanswered Rule 60(b) claims. The parties briefed the issues and the circuit court
issued an order on March 18, 2019, iinding that Plaintiff had "‘presented no novel facts, arguments,
or theories” in support of his motion, and that there was nothing in the record the court "may have
misunderstood, failed to fully consider, or perhaps failed to rule on.” Plaintiffs motion to
reconsider was therefore dismissed.
Plaintiff idea a notice of appeal with the South Carolina Court of Appeals on April 18.
2019. but Ins claim was later dismissed on January 23, 2020, for failure to serve the record as
required under Rule 210(c) of tin: South Carolina Appellate Court Rules (“SCACR").3 (Tea Case
No. 2019-000640.) Plaintiff then filed a petition for a writ of certiorari, which the South Carolina
Supreme Court dismissed without prejudice on February 5, 2020, because Plaintii'fhad failed to
file a petition for reinstatement or rehearing with tire court of appeals. (Nee Case No. 2020-000173.)
Plaintiff now brings this federal action against Defendant pursuant to 42 U.S.C. § 1983,
claiming that Defendant’s attorneys violated his Fourteenth Amendment rights to due process and

Plaintiff claims (hat he filed a petition for buperscdcasMay under Rule 41, SCACR, on October 2S, 2019,
requesting a slay of the appeal proceeding and seeking remand in order to allow the circuit conn to adjudicate his
unresolved Rule 60(b) claims. (Dkt. Xo. 19, at 2.3 24.) The parties briefed the issues and the South Carolina Court of
Appeals denied Plaintiff s morion.

22a

equal protection of the law by conspiring with state court officials to “intentionally discriminate
against Plaintitl throughout the course oflus underlying medical malpractice case. (Dkt. No. 19
at 4.) Alter reviewing Plaintiff s initial Complaint (Dkt. No. 1): the undersigned determined that
Plaintiffs claims wore subject to summary dismissal for failure to state

a facially plausible claim

lor relief The undersigned issued a propei form oidev notifying Plaiiitifi oi this determination.
explaining why his allegations failed to state a claim under § 1983, and providing him
an
opportunity to submit an amended complaint that resolved these deficiencies. (Dkt. No. 6.)
Piamnll hied an Amended Complaint shortly thereafter (Dim No. 12), followed by a Motion to
Amend/Correct on November 4, 2020 (Dkt. No. 16), winch the undersigned granted (Dkt. No. 17).
Accordingly, the undersigned's assessment here is limited to Plaintiffs Second Amended
Complaint (Dkt. No. 19), which replaces both of his previous complaints in this action.
STANDARD OF RKVIFW
Lnder the established local procedure in this judicial district, a careful review has been
made of Plaintiffs pro se Second Amended Complaint. Specifically, the undersigned has
evaluated Plaintiffs claims pursuant to the procedural provisions of 28 U.S.C. § 1915 and in light
of the following precedents: Denton

Hernandez., 504 U.S. 25 (1992): Neitzke v. Williams, 490

L’.S. 359, 324 25 1,5989): Haines v. Kerner, 404 U.S. 519 (1972); Nasim v. Warden, Md. Home
of Carr.. 64 F.3d 951 (4th Cir. 1995); and Gordon v. Leeke, 574 F.2d 1147 (4th Cir. 1978).
Pursuant to 28 U.S.C. ss 1915, an indigent litigant, like Plaintiff may under

certain

circumstances commence an action in federal court without prepaying the administrative costs of
proceeding with the lawsuit. To protect against possible abuses of this privilege, the statute allows
a district court to dismiss the case upon a finding that the action “fails to state a claim

on which

relief may be granted,” “is frivolous or malicious,” or “seeks monetary relief against a defendant

23a
\

i

who is immune from such relief." 28 U.S.C. § 1915(e)(2)(B): see also Nagy v. FMC Butner. 376
F.3d 252, 256 (4th Cir. 2004) (explaining that the granting of in forma pauperis status in a case
triggers a district court’s duty to “sift out claims that Congress found not to warrant extended
judicial treatment”). A complaint is frivolous if it is “clearly baseless” and makes “fanciful
allegations.’' Demon.. 504 U.S. at 32 33 (internal citations and quotation marks omitted); see also
Neitzke, 490 U.S. at 325 (“A suit is frivolous if it lacks an arguable basis in law or fact.”)
In determining whether a pro se complaint states a claim on which relief may be granted,
the court must look to the familiar pleading standard under Rule 8(a)(2) of the Federal Rules of
Civil Procedure. Specifically, a complaint filed in federal court “must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that is plausible on its face,”’ rather than merely
"conceivable.” See Ashcroft v. Iqbal. 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v.
Iwombly, 550 U.S. 544, 570 (2007)). The court is not bound, however, to accept as true a
complaint's bare legal conclusions. Id. When “it is clear that no relief could be granted under any
set of facts that could be proved consistent with the allegations,” Hishon v. King & Spalding, 467
U.S. 69, 73 (1984), the complaint fails to state a claim to relief for purposes of § 1915(e)(2)(B).
Pro se complaints are held to a less stringent standard than those drafted by attorneys.
Gordon, 574 F.2d at 1151. A federal court is therefore charged with liberally construing a
complaint filed by a pro se litigant to allow the development of a potentially meritorious case.
Erickson v. Pardus, 551 U.S. 89, 94 (2007). Nonetheless, the requirement of liberal construction
does not mean that the court can ignore a clear failure to allege facts that set forth a cognizable
claim under Rule 8(a)(2). See Weller v. Dep't ofSoc. Servs., 901 F.2d 387, 390-91 (4th Cir. 1990);
see also Ashcroft v. Iqbal, 556 U.S. 662, 684 (2009) (outlining pleading requirements under Rule
8 of the Federal Rules of Civil Procedure for “all civil actions”).
24a
“

>

DISCUSSION
Ajtirowgh-P-tetmtfPs-Secoml-AHicnttetl-CmiiphHut-is-M-gntltcantly-toiigeHhcMHris-p'revi'Onsuvo complaints, the convoluted ill -page pleading ultimately boils down to the same deficient,
conelusory claims raised in those earlier filings:
.Dcfendantps] attorneys had a meeting of the mind with each state court officials in
their individual capacities to conspire against Plaintiff to act under color of law of
state laws as set forth herein at each stages of the Court proceedings to arbitrarily
invoke the rules, policies, practices, procedures, statutes and customs of State of
South Carolina as set forth herein for no rational or legitimate reason but solely for
the purpose to cover-up all evidence that would entitle Plaintiff to relief from
judgment with intent to discriminate against Plaintiff to treat him unequally to
prevent him from enjoying his constitutional rights to equal protection and due
process of law.
(Diet. No. 19 at 4 (errors in original).) Thus, lor the reasons set forth below, the undersigned finds
that Plaintiffs Second Amended Complaint fails to remedy the pleading deficiencies identified in
the undersigned 's prior order (Dkt. No. 6) and is therefore subject to summary dismissal.
I.

Civil Conspiracy Pursuant to 42 U.S.C. § 1983
To state a claim to relict under 42 U.S.C. § 1983, the plaintiff must allege two essential

elements: (1) that a right secured by the Constitution or laws of the United States was violated.
and (2) that the alleged violation was committed by a person acting under the color of state law.
♦

Rehberg v. Paulk. 566 U.S. 356, 361 (2012). In other words, a plaintiff suing under ^ 1983 must
establish that his constitutional rights were violated through conduct that constitutes "state action.”
Sue, e.g.. Blum v. Yaretsky. 457 U.S. 991, 1002 (1982). Purely private conduct, no matter how
wrongful, does not constitute stale action under § 1983. See Lugar v. Edmondson Oil Co... 457 U.S.
922, 936 (1982) (explaining that to qualify as state action, the conduct in question "must be caused
I

by the exercise of some right or privilege created by the State or by a rule of conduct imposed by

25 a

the State or by a person for whom the State is responsible/' and ’‘the party charged with the
| conduct] must be a person who may fairly be said to be a state actor”).
As Plaintiff acknowledges in his Second Amended Complaint, Defendant is a private
entity. (Dkt. No. 19 at 4.) Thus, Defendant’s actions and those of its counsel arc generally
precluded from suit under § 1983. See Jackson v. Williams., No. 3:10-cv-3022-JFA, 2010 WL
5644798, at *2 (D.S.C. Dee. 9, 2010), adopted.. 2011 WI. 247883 (D.S.C. Jan. 26, 2011) (“An
attorney, whether retained, court-appointed, or a public defender, does not act under coior of state
law, which is a jurisdictional prerequisite for any civil action brought under § 1983.”) In some
instances, however, a private entity that jointly participates in constitutional wrongdoing with a
slate official may be said to have engaged in state action under § 1983. See Dennis v. Sparks, 449
U.S. 24, 27 -28 (1980). Here, Plaintiff attempts to show such participation by alleging that
Defendant’s attorneys conspired with the various state court judges involved in his medical
malpractice lawsuit “to discriminate against him with intent to treating him differently than other
similarly situated petitioners . . . [and] to deprive him of his federal constitutional rights to equal
protection of the law and due process of law.” (Dkt. No. 19 at 106.) Plaintiffs allegations of
conspiracy fall short of the requisite state action under § 1983 for several reasons.
A civil conspiracy under 42 U.S.C. § 1983 requires that the plaintiff prove: (l) defendants
acted jointly in concert; (2) that some overt act was done in furtherance of the conspiracy; and
(3) the conspiracy resulted in the deprivation of a constitutional right.6 See Hinkle v. City of

As noted above, Plaintiff bases his claims on the deprivation of two constitutional rights: (1) procedural due
process and (2) equal protection under the law, the latter of which is generally governed by 42 U.S.C jj 1985(3). See
Cocknim v. Donald J. Trump for President. Inc... 365 F. Sunp. 3d 652, 661 (E.D. Va. 2019), dismissed] Xo. 19-1398,
2019 WL 3152518 (4th Cir. July 5,2019) (explaining that si 19S5(3) protects against conspiracies that deprive persons
of the equal protection of the laws, or of equal privileges and immunities under the laws’"). Although Plaintiff does
not make this distinction in his Second Amended Complaint, his allegations suggest that he is invoking both tq 1983
am: 1985. See Lnited .Stares i\ Bluckstoch, 513 F.3d 128, 131 (4th Cir. 2008) (holding that courts must consider jno
se tilings according to their contents, regardless ol the label given). (See also Dkt. No. 6, in which the undersigned
advised Plaiulifl with respect to both tjvj 1983 and 1985.) The undersigned therefore considers Plaintiffs allegations

26a

Clarksburg. W. l a., 81 F.3d 4!6; 421 (4ih Cir. 1996). "Where the complaint makes on.
uf-aTOitSpirlicy underlT9N3 and fails to demonstrate any agreement i
meeting ol the minds among the defendants, the court may properly dismiss the complaint.” Sc
McNeill v. Jhonsou. No. 3:18-cv-188-FDW, 2018 WI. 3868809, at *6 (W.D.X.C. Aug. 14. 2011
(dismissing pro sc § 1983 conspiracy claim during initial review): see also Williams v. Caved,
Xu. 3:13-ev-00672-HEH, 2014 WL 852038, at *2 (E.D. Va. Mar. 4; 2014), ajj’ci Xo. 14-700
(■'t\h Cir. Sept. 26. 2014) (explaining that for purposes of initial review under § 1915(c)(2)(B).
pro se plaintiff alleging civil conspiracy must "plead facts that would reasonably lead to lh
uilctcnee that jdcicnaants] positively or tacitly came to a mutual understanding to try t
accomplish a common and unlawlui plan") (interna! citations and quotation marks omitted)).
In the instant case. Plainliil's own allegations fatally undermine any showing of a:
agreement or meeting of the minds, as he repeatedly asserts that Defendant’* attorneys perpetrate
exoimsio ivtwui on the court, which inimciiccd anu ultimately resulted in the state courts'' advers
judicial determinations against Plaintiff. (See. e.g. Dkt. Xo. 19, at 5 6 (alleging that Defendant’
attorneys

"committed

extrinsic

fraud

upon

the

circuit

court”

by

"deliberate!-

misrepresenting . . . lacls that Defendant met the standard of care in treatment" and concealin'
cettain documents and information from the Court"): at 7 (alleging that Defendant's attorney
del lauded die Couit of Appeals and the S.C. Supreme Court by "deliberately misrepresenting h
the first appellate proceedings" that the circuit court had dismissed Plaintiffs January 27, 201 <
motion to reconsider, despite the fact that his flute 60(b) claims had not yet been adjudicated): a
!7 (alleging that because Defendant "deliberately misrepresented the facts to ihe court.” ccrtan

uiitk i the lens ot both statutes in this Report and Recommendation: this first section of the discussion addresses ih
alleged violations ol Plaintiil s due process rights under jj )9X3, and lire second section addresses the alle<»e<
violations of his equal protection rights under § 1985(3).
c

27a

f>

t*

documents "were excluded’’ from the record); at 46 (alloying that Defendant “obtained” the
February 5. 2016 judgment “by extrinsic fraud upon the court”); at 76 (alleging that Defendant’s
attorneys attempted to "improperly influence” and “defraud the court” by sending the Clerk of
Court a letter on or around September 4. 2018, opposing Plaintiffs request for a hearing on the
basis that “all post-trial motions were concluded on appeal”).)
As the undersigned noted in the proper form order, “misleading court officials is
inconsistent with conspiring with them.” (Dkt. Mo. 6.) To the contrary. Plaintiffs repeated
allegations that Defendant’s attorneys misled and defrauded the state court in order to violate his
due process rights and obtain favorable judgments sound entirely in private action- not mutual
understanding or joint concert. See Ellison v. Proffit. No. 4:16-cv-00847-BHH-KDW, 2017 \VL
598511, at *7 (D.S.C. Jan. 24. 2017), adopted, 2017 WL 588734 (D.S.C. Feb. 13, 2017) (finding
that plaintiff s allegations did not “establish a plausible § 1983 civil-conspiracy claim because they
I'ailjetV) to show any agreement or mutual understanding” among the particular defendants);
Hinkle.. 81 F.3d at 421 (reiterating that the plaintiff must demonstrate that “each member of the
alleged conspiracy shared the same conspiratorial objective”). Thus, Plaintiffs Second Amended
Complaint fails to show that Defendant worked “jointly in concert” with a state actor as required
under § 1983.
Moreover, notwithstanding Plaintiffs contradictory claims regarding Defendant’s fraud on
the court, the undersigned finds that Plaintiffs Second Amended Complaint also fails to allege an
overt act in furtherance of the purported conspiracy sufficient to “nudgeQ (Ins) claims across the
line from conceivable to plausible” under Rule 8(a). Twombly, 550 U.S. at 555. In an attempt to
show state action, Plaintiff points generally to the unfavorable rulings issued in his medical
malpractice lawsuit, suggesting that the state courts’ failure to adopt his legal positions reflects
28a

a

V

■M

\

v-

their participation in the conspiracy. {Sec, e.g.; Diet. No. 19. at 17 (alleging that the circuit court
had a meeting of the nundtsl and made an agreement with Defendant’s attorney . . . to further the
conspiracy" by adopting Defendant’s legal position as set forth in its memorandum in opposition
to Plaintiff's motion for reconsideration filed on March 8, 2019): at 24 (alleging that “the Court of
Appeals officials agree!d] to conspire with Defendant’s attorney" by rejecting “all of Plaintiff;'’si
grounds in the Supersedeas/Stay proceeding to deny stay of the appeal and remand solely for the
purpose to discriminate. ..at 70 74 (alleging furtherance of conspiracy by railing to rule in
accordance with the '‘controlling law” as set forth in Plaintiff’s motion to vacate); at 107- 08
(alleging iiiat the court intentionally adopted “Defendant’s attorneys!’] grounds to deprive Plaintiff
of his federal constitutional rights”).)
Aside from die conclusory, speculative nature of the allegations above, it is wellestablished that Ptaintiif s lack ol success in (he underlying stale court litigation is insufficient to
raise an inference of conspiracy under § 1983. To be sure.
The nature ol the judicial function in our adversaria) system is to weigh competing
arguments in light oi the relevant facts and applicable law and. though often
difficult, to decide which side wins and which side loses. The fact that a judge
accepts one party’s arguments and rejects another’s cannot, without move, give vise
to an inference that the judge conspired with the prevailing party. Were it otherwise,
•. courts would be flooded with conspiracy claims against judges by disgruntled
litigants.
Stephens v. Herring, 827 F. Supp. 359, 365 66 (F.D. Va. 1993); see also Paul v. S.C. Dep i of
Tnmsp., No. 3:13-ev-1852-CMC-PJG, 2014 WL 5025815, at ”5 (D.S.C. Oct. 8, 2014), aff 'd, 599
f. Appx 108 (4ih Cir. 2015) (summarily dismissing pro se § 1983 conspiracy claim because the
state court s decision to ultimately accept the defendants’ legal position over that of the plaintiff
in the underlying state court action- despite possible misrepresentations by the defendants durim>
those proceedings -was insufficient to state a plausible claim to relief); Ellison, 2017 WL 598511,
at : 7 (dismissing civil conspiracy claims as conciusory where plaintiff’s only allegations of “overt
29a

•* .

ac.fion wete the defendants litigation tactics, including alleged misrepresentations and the
witlmolding of information, that impacted the outcome of’the lawsuit and “made it more difTicuh”
for plaintiff to prevail in the litigation).
Based on the above, the undersigned finds that the allegations in Plaintiffs Second
Amended Complaint are conelusory, frivolous, and therefore insufficient to .state a claim upon
which iciiel may be granted. lo conclude otherwise would deem plausible the idea that each of
the state comt judges hwolvco in Piaimiif s underlying malpractice action independently rendered
theii lespcctive judicial determinations in favor oi Defendant, based not on their legal analyses of
the ease, but rather, on their participation in a clandestine conspiracy with Defendant to deprive
Plaintiff of his constitutional rights. Such a position is simply untenable. See Paul, 2014 \V1.
5025815, at ■ 10 (citing Hinkle, 81 F.3d at 422) (“{F(actual allegations must reasonably lead lo the
mmtuice that the uefenuants came to a mutual understanding to try io ‘accomplish a common ami
unlaw mi plan, anti must amount to more than hank speculation and conjecture/ especially when
tin. actions am capable of innocent interpretation/ ).; see also Nanni u Aberdeen Marketplace, Inc..
878 1.3d 447, 452 (4th Cir. 2017) C‘jTjo satisfy the plausibility standard, a plaintiff is not required
to plead factual allegations in great detail, but the allegations must contain sufficient factual heft
to allow a couit, drawing on judicial experience and common sense, to infer more than tin : mere
possibility ol that which is alleged.”). I he undersigned therefore recommends that the Court
summarily dismiss Plaintiffs allegations of civil conspiracy under § 1983.
II.

Civil Conspiracy Pursuant to 42 U.S.C. § 1985(3)
As noied above, Plaintiffs allegations that Defendant discriminated against him and

violated his right to equal protection under the law suggest that he is also seeking relief pursuant
lo 42 U.S.C. § 1985(3). (See supra at pp. 8 9 n.6.) Claims raised under § 1985(3) arc limited to
30a

private conspiracies predicated on "racial

or perhaps otherwise class-based invidiously

.ti^GmftH+atorrarvinrus^(Tr///fnn-/^/(7^f7^403"Cin^l7)2Tnmpf(n^^ a claim under
v 1985(3), a plaimilt must allege: (1) a conspiracy ol'lwo or more persons. (2) who arc motivated
by a .specific class-based, invidiously discriminatory animus to (3) deprive the plaintiff of the equal
enjoyment of rights secured by the law to all, (4) and which results in injury to the plaintiff as (5) a
consequence ol an oven aci commuted by the dclendants in connection with the conspiracy.
S,r,m,om v. />«.. 47 F.3d 1370, 1376 77 (4th Cir. 1W5). PlaimiftS Second Amended Complaint
tails to state a facially plausible claim to relief under $ 1985(3) for several reasons.
At the outset, the law is well-settled that to establish a civil conspiracy pursuant to
8 1985(3). the plaintiff must show an agreement or a -‘meeting of the minds” by the defendants to
violate the plaintiff s constitutional rights. See id. at 1377. Thus, for the same reasons Plaintiffs
conspiracy claim falls short under * 1983, Plaintiffs Second Amended Complaint likewise finis
to alLge 'acts sufficient to infer the mutual understanding or joint action required to raise a civil
conspiracy claim under § 1985(3). {See supra at pp. 9 12.) See, e.g,, Gunn v. Cheeks.. No. 7:18cv-3427-HMH-KFM, 2019 \VL. 831122, at *2 (D.S.C. Jan. 22, 2019), adopted, 2019 WL 804658
(D.S.C, Feb. 21. 2019) (dismissing $ 1985(3) claim during initial review where pro se plaintiff
set ioith only conciusory allegations,” because "conjecture and speculation are insufficient to
demonstrate a conspiratorial agreement” or "mutual understanding” as required § 1985(3)); see
also Simmons, 47 F.3d at 1377 (noting that the Fourth Circuit has "specifically rejected section
1985 claims whenever the purported conspiracy is alleged in a merely conciusory manner , in the
absence of concrete supporting facts”).
Second, as the undersigned explained to Plaintiff in the proper form order (Dkt. No. 6)
civil conspiracy under $ 1985(3) must be motivated by a "class-based, invidiously discriminatory
31a

animus." Griffin. 403 L'.S. at 102: see also Knight v. Johnson, No. 2:1 S-cv-03199-DCN-MGB.
20! 8 WL 3615224.. at :*9 (.D.S.C. May 9. 2018}.. adopted, 2018 WL 3611454 (D.S.C. July 26;
2018): aff'd sub own. Knight > . C/ienega Sec., Inc., 757 F. App’x 286 (4th Cir. 2019) (recognizing
that ''Section i985(3) does not encompass conspiracies motivated by economic, political or
commercial animus") (internal citations omitted). Other than Plaintiffs general, conclusory
accusations that Defendant conspired with state court officials to "discriminate against Plaintiff'
and "treat him unequally," (see, e.g., Did. No. 19 at 4), Plaintiff does not raise any factual
allegations that indicate a class-based, invidiously discriminatory animus. See Equity in Athletics,
Inc. v. Dcp 7 ofEduc., 639 F.3d 91, 108 (4th Cir. 2011) (noting that "|i]n order to survive amotion
to dismiss an equal protection claim, a plaintiff must plead sufficient facts to demonstrate plausibly
that jit 1 was treated diflerentiy from others who were similarly situated and that the unequal
treatment was the result of discriminatory animus"): see also Twornbly, 550 U.S. at 555 (finding
that a plaintilf cannot satisfy the basic pleading standard with complaints containing only ''labels
and conclusions” or a “formulaic recitation of the elements of a cause of action"). Without the
requisite showing of unlawful discriminatory animus, the undersigned finds that Plaintiff cannot
raise a plausible claim for civ il conspiracy pursuant to § 1985(3) and therefore recommends that
the Court summarily dismiss this cause of action as well.
CONCLUSION
It is therefore RECOMMENDED that the District Court summarily dismiss this action
with prejudice and without issuance or service of process/

The Fourth Circuit Court of Appeals has found that v. hero the district court has already afforded the pi ti sc
plaintiff tin opportunity to amend his dr iter complaint, as the undersigned did here, the district court has the discretion
to afford the plaintiff another opportunity to amend or may “dismiss the complaint with prejudice, thereby rendering
tiie dismissal order a final, appealable order." Workman v. Morrison Hcolfht are, 724 F. App'x. 2,SO (4th Cir. June 4,
2018) (internal citations omitted). Because Plaintiff was given an opportunity to amend his claims and failed to cure ■

32a

V.

*&•

4.‘

r

V* .

v-ir

.i \

• --X

r

•

■>

'3f

4

i1.
i
?

IT IS SOmElSaMME^Dmm^yTA I « (OTI/U
aamojia) htuo« ho THgrmi

r,

i*
T,VE

*£•

we

•c

*
1

.HDl40KH-£^00~v>0£:$. .oM o*r,D

f
?-

f

) >ui '

(
(

'

(

Jammy \\.202\
Charleston. SouthiGarolina

'X

BAKER'HNITHD STA'i ES'MAGISTRATE JUDGE
/
A

(

DJJ

(

isoibsh/ ‘nsbiir

(

2

A

»

A

I»*4 «
I 1*#

.JwibjrjbCi

$

&

#4001
■sAm'.Afoiu ^rt'jgoHc no Ron iivio 2idi >olfS ,-/.rvx\\iw\

I
is

vmvmA m him s* vy^amfwvbo'iq ,TitUimf*T
(o)(H){fl}iO IX 'jlufl ivri'J iirooJ rA>ttJ .£&(*! <5 2).2.IJ £!» oJ mnu^toq xr/lgh ifwOfismbmwxvl'E>
>ou>\2 boiinU bytigfKfi orh oi boiohn aourf ov'.d no}job A/li ni egmbyohotq Ishityjq
G)
ft
*
.ng,hul
oierDiq;:!1/
Ik t»

;
*
*

Broni

■■

s

4jb

a^ ft

2<r

€

I

*

C

IIS ¥1IS-CI£,^,

i

S'

m-

4«o?JS3'« aril io"i bits gnirroow;; iuiimt nil no bm^t
\p6fn(nu<> o) Jaaidwa v.\ aafio airlT
*raD od;
H
'jri*lti bmu&fo
sarnta tol
^wridBt
mrr|||
Hisfte hocOlo
,
IA3? . %*»
It; ttaoooiq'lo

1 •
ip
$

■ Y

fr

*r

.(1ji>imo>io oa m ri

2

ms
a

2"

rice.

wec

'xram y&mptiXMM
iioaut a* AMiaiOAM a-rr/fra vidrn^u

*

2
! £01, t} Yiiinnid.

i;/?ilo-|fO flJooa

I

lt!
I

I

•2

%
At

mi; idcntilicd dcitcicncics m iiis Second Amended Complaint, she undersigned recommends, in keening with the
Fourth Circuit precedent, that this action be dismissed with prejudice.

it

*:

b:

t.

* •?•

*F*~ ,

r
V

f
%,

fiA£

'

v

33a

■r -

..
*«

-.>G&,Ar

:.r.

Al A

'>•■■ te,.

*.*i ^"'"■‘-..<4- lAtAA'Ciist.'-’C5

